                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601
June 21, 2012

Report Number: A-05-12-00011

Ms. Patricia Casanova
Director of Medicaid
Office of Medicaid Policy and Planning
Indiana Family and Social Services Administration
402 West Washington Street, Room 461, MS-25
Indianapolis, IN 46207

Dear Ms. Casanova:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Indiana Reduced Medicaid Costs for Home Blood-Glucose
Test Strips by Approximately 50 Percent Using Manufacturer Rebates. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-12-00011 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Patricia Casanova


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





 INDIANA REDUCED MEDICAID 

   COSTS FOR HOME BLOOD-

   GLUCOSE TEST STRIPS BY 

 APPROXIMATELY 50 PERCENT 

USING MANUFACTURER REBATES





                       Daniel R. Levinson

                        Inspector General 


                           June 2012 

                         A-05-12-00011 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR § 431.51(d)
and 42 CFR § 431.54(d), the Medicaid agency may establish special procedures for the purchase
of medical devices through a competitive bidding process or otherwise, if the State assures and
CMS finds that adequate services or devices are available to recipients under the special
procedures.

In Indiana, the Indiana Family and Social Services Administration, Office of Medicaid Policy
and Planning (State agency) administers the Medicaid program. During the period July 1, 2010,
through June 30, 2011, the State agency reimbursed providers more than $4 million for home
blood-glucose test strips (test strips).

Pursuant to Indiana Administrative Code 405 IAC Article 5, the State agency provides for
eligible pharmacies and durable medical equipment providers in the Indiana Medicaid program
to bill for medical supplies, including test strips. Pursuant to Indiana Administrative Code 405
IAC 5-19-1, the State agency reimburses providers the lesser of the submitted charge or the
calculated allowable amount. The calculated allowable amount is determined in accordance with
Federal and State laws.

The Indiana Medicaid program obtained a waiver from CMS, approved on December 1, 2010,
and with no specified end date, to implement a selective contracting program for test strips under
the exemptions permitted in section 1915(a)(1)(B) of the Act and requirements established in 42
CFR § 431.51(d) and 42 CFR § 431.54(d). The selective contracting program was structured to
obtain manufacturer rebates on test strips and reduce State expenditures.

OBJECTIVE

Our objective was to determine whether the Indiana Medicaid program could achieve savings for
test strips.

SUMMARY OF FINDINGS

The Indiana Medicaid program achieved savings of approximately 50 percent by establishing a
manufacturer rebate program for test strips. The net cost of test strips obtained through Indiana’s
manufacturer rebate program was significantly lower than the Indiana Medicaid maximum

                                                 i
reimbursement rate of $36.72. Indiana has two separate manufacturer rebate contracts that
reduced the net cost to $17.72 or $14.70 per 50-unit pack. Overall, the Indiana Medicaid
program achieved savings of approximately $1.2 million during the period January 1, 2011,
through June 30, 2011, through the use of manufacturer rebates for test strips. The State
agency’s resourceful use of manufacturer rebates led to significantly reduced costs that provided
mutual benefits to the State and Federal government, while maintaining access to test strips for
Medicaid beneficiaries.

RECOMMENDATION

We recommend the State agency continue to use its manufacturer rebate program to save
Medicaid program funds.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendation. The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS 




INTRODUCTION................................................................................................................ 1 


          BACKGROUND ...................................................................... .................................1 

              Medicaid Program ..... ........................................... ................................ .......... 1 

              Federal Requirements .................................................................................... 1 

              Indiana Family and Social Services Administration, 

                Office of Medicaid Policy and Planning ....................................... .............. l 

              Indiana Medicaid Manufacturer Rebate Program .............................. ............ 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2 

               Objective ..................... ...... .......... ................................................................... 2 

               Scope .............................................................................................................. 2 

               Methodology ............. .................................................... .............................. ...2 


FINDINGS AND RECOMMENDATION .........................................................................3 


          INDIANA'S MANUFACTURER REBATE PROGRAM .......................................3 


         COST SAVINGS ACHIEVED BY THE INDIANA MEDICAID PROGRAM ..... .4 


         RECOMMENDATION .............................................................................................5 


          STATE AGENCY COMMENTS ........................................................................... ... 5 


APPENDIX 


         STATE AGENCY COMMENTS 





                                                                     III
                                      INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Indiana, the Indiana Family and Social
Services Administration, Office of Medicaid Policy and Planning (State agency) administers the
Medicaid program.

Federal Requirements

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR § 431.51(d)
and 42 CFR § 431.54(d), the Medicaid agency may establish special procedures for the purchase
of medical devices through a competitive bidding process or otherwise, if the State assures, in
the certification required under section 431.51(d), and CMS finds that adequate services or
devices are available to beneficiaries under the special procedures.

Indiana Family and Social Services Administration,
Office of Medicaid Policy and Planning

Pursuant to Indiana Administrative Code 405 IAC Article 5, the State agency provides for
eligible pharmacies and durable medical equipment providers in the Indiana Medicaid program
to bill for medical supplies, including home blood-glucose test strips (test strips). Pursuant to
Indiana Administrative Code 405 IAC 5-19-1, the State agency reimburses providers the lesser
of the submitted charge or the calculated allowable amount. The calculated allowable amount is
determined in accordance with Federal and State laws.

Indiana Medicaid Manufacturer Rebate Program

The Indiana Medicaid program obtained a waiver from CMS, approved on December 1, 2010
and with no specified end date, to implement a selective contracting program for test strips under
the exemptions permitted in section 1915(a)(1)(B) of the Act and requirements established in 42
CFR § 431.51(d) and 42 CFR § 431.54(d). The selective contracting program is structured to
obtain manufacturer rebates on test strips and reduce State expenditures while maintaining access
to products for Medicaid beneficiaries.

The Indiana Medicaid program solicited proposals from manufacturers of test strips through a
Request for Proposal procurement process. The State agency awarded two contracts to
manufacturers that provided the largest rebates for the purchase of test strips. The two


                                                1

manufacturers paid rebates to the State agency based on beneficiary utilization of contracted test
strips. The State agency’s reimbursement to providers did not change as claims continued to be
priced according to Indiana’s Medicaid fee schedule. Indiana’s manufacturer rebate program
became operational in January 2011.

During the period July 1, 2010, through June 30, 2011, the State agency reimbursed providers
more than $4 million for test strips.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Indiana Medicaid program could achieve savings for
test strips.

Scope

Our audit covered Indiana Medicaid payments totaling $4,724,189 for 128,654 packages of 50
test strips (50-unit pack) supplied to beneficiaries during the period July 1, 2010, through
June 30, 2011. We limited our review to paid claims that were reimbursed at Indiana’s Medicaid
maximum reimbursement rate of $36.72 for each 50-unit pack of test strips, which represented
95 percent of all test strip claims for the audit period.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency’s test strip pricing and
reimbursement policies.

Audit documentation was provided electronically by State agency officials. Therefore, no
fieldwork was performed in Indiana.

Methodology

To accomplish our audit objective, we:

   	 reviewed applicable Federal and State requirements;

   	 discussed the newly established manufacturer test strip rebate program with State agency
      officials;

   	 identified the negotiated manufacturer test strip rebates received by the Indiana Medicaid
      program;

   	 obtained and reviewed a list of Indiana Medicaid payments for test strips for the period
      July 1, 2010, through June 30, 2011;



                                                 2

    ®	   determined the number of payments that were reimbursed at Indiana' s Medicaid 

         maximum reimbursement rate of$36.72 per 50-unit pack; 


    (; 	 obtained and reviewed the State agency's manufacturer rebate cost analysis report for
         diabetic supplies for the period of January], 2011, through June 30, 2011; and

    ®	   determined the approximate amount that the Indiana Medicaid program saved for test
         strips under the manufacturer rebate program during the period of January 1, 2011,
         through June 30, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

The Indiana Medicaid program achieved savings of approximately 50 percent by establishing a
manufacturer rebate program for test strips. The net cost l of test strips obtained through
Indiana's manufacturer rebate program was significantly lower than the Indiana Medicaid
maximum reimbursement rate of $36.72. Indiana has two separate manufacturer rebate contracts
that reduced the net cost to $17.72 or $14.70 per 50-unit pack. Overall, the Indiana Medicaid
program achieved savings of approximately $1 .2 million during the period January 1, 201 1,
through June 30, 2011, through the use of manufacturer rebates for test strips. The State
agency's resourceful use of manufacturer rebates led to significantly reduced costs that provided
mutual benefits to the State and Federal government, while maintaining access to test strips for
Medicaid beneficiaries.

INDIANA'S MANUFACTURER REBATE PROGRAM

The Indiana Medicaid program obtained a waiver from eMS, approved on December 1, 2010
and with no specified end date, to implement a selective contracting program for test strips under
the exemptions permitted in section I 9 15(a)(l)(B) of the Act and requirements establ ished in 42
CFR § 431.51 (d) and 42 CFR § 431.54(d). The selective contracting program is structured to
obtain manufacturer rebates on test strips and reduce State expenditures while maintaining access
to products for Medicaid beneficiaries. The Indiana Medicaid program solicited proposals from
manufacturers of test strips through a Request for Proposal procurement process. The State
agency awarded two contracts to manufacturers that provided the largest rebates for the purchase
of test strips. The two manufacturers paid rebates to the State agency based on beneficiary
utilization of contracted test strips. The State agency's reimbursement to providers did not
change as claims continued to be priced according to Indiana's Medicaid fee schedule.



I Net cost equals the Medicaid maximum reimbursement rate (per 50-unit pack) minus the applicable manufacturer

rebate amount (per 50-unit pack).

                                                       3
Medicaid beneficiaries obtain test strips provided by contractors through drug stores, retail
outlets, or by mail-order from providers enrolled in the Indiana Medicaid program. Beneficiaries
obtain test strips not covered under the contract if they obtain prior authorization from the State
agency based on medical necessity. Indiana’s manufacturer rebate program became operational
in January 2011.

COST SAVINGS ACHIEVED BY THE INDIANA MEDICAID PROGRAM

The net cost for test strips obtained through Indiana’s manufacturer rebate program was
significantly lower than the Indiana Medicaid maximum reimbursement rate of $36.72. The
manufacturer rebate program reduced the net cost to $17.72 or $14.702 per 50-unit pack. The
State agency reimbursed providers $2.4 million for 66,608 50-unit packs at the Medicaid
maximum reimbursement rate of $36.72 during the period July 1, 2010, through December 31,
2010, and $2.3 million for 62,046 50-unit packs at the Medicaid maximum reimbursement rate
during the period January 1, 2011, through June 30, 2011. We determined that the Indiana
Medicaid program received rebates from test strip manufacturers that resulted in a net reduction
of Medicaid test strips costs of approximately $1.2 million during the period January 1, 2011,
through June 30, 2011. The manufacturer rebates effectively lowered Medicaid costs for the
State and Federal government.

Table 1 details the approximate cost savings achieved through the use of manufacturer rebates
during the period January 1, 2011, through June 30, 2011.

                 Table 1: Cost Savings Achieved Through Manufacturer Rebates


                                           Indiana             Indiana Medicaid          Approximate
                                           Medicaid              (After Rebate)          Cost Savings
            

          Reimbursement rate
                                            $36.72                   $16.653                 $20.074
           (per 50-unit pack)

              Total amount
           (per 62,046 50-unit            $2,278,329               $1,033,266              $1,245,063
                 packs)


2
 Indiana has two separate manufacturer rebate contracts with net unit costs of $0.3544 and $0.294 per unit
multiplied by 50 units equaling $17.72 and $14.70, respectively. The contracts have an expiration date of
December 31, 2013, with a 3-year renewal option.
3
 We determined the approximate amount after rebate for a 50-unit pack of test strips by dividing the total dollar
amount after rebate ($1,033,266) by total units reimbursed (62,046).
4
 We determined the approximate cost savings achieved for a 50-unit pack of test strips by dividing the total amount
of cost savings after rebate ($1,245,063) by total units reimbursed (62,046).

                                                          4

RECOMMENDATION

We recommend the State agency continue to use its manufacturer rebate program to save
Medicaid program funds.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendation. The State agency’s comments are included in their entirety as the Appendix.




                                              5

APPENDIX

                                                                                                                              Page 1 of2


                         APPENDIX: STATE AGENCY COMMENTS 





May 25, 2012

SENT VIAlkERTIFWP MAIL

Sheri L. Fulcher
Regional Inspector General for Audit Services
Office ofIn.pector General
Department of Health and Human Services
233 WOlth Michigan, Suite 1360
Chicago,IL 60601

RE:     Report Num\)er A-05-U-000U
Certified Mall Tracking Number: 7011 3500 0000 6508 6194

Dear Ms. Fulcher,

This letter is in response to a d\ll.ft audit report issued by the Office of Inspector General on April 20, 2012.. report
number A.05.12·00011 entitled, ''Jntii!m4Relittced i'vJedlcllid CostsforHome Bfo(u/rGlucose Tests Strips by
ApPfQximately 50 Per(:ent Using Manufacturer Rebates.," Thereview foctlsedon whe.ther the Indiana Medh;aid
program could achieve savings for test strips by reviewing the State agency's test strip pricing and reimbursement
policies. The audit period was for service dates from 07/0112010 through 06/30/2011.

The audit finding and recommendation issued by the OIG indicated that the Indiana Medicaid program achieved savings
of aPproximately 50 percent by establishing a manufaqurer rebate. program for test strips. The net cost of test strips
obtained through Indiana's manufa@rerebateprogramwas siguifiCllQtly lower tIlaJl the Inqiana Meqicaid maximum
reimbursement rate of$36. 72. Indiana has two separate manufaqurerrebate contracts tliat re<iuced the net cost to $17.72
or $14.70 per 50·unit pack. Overall, the Inqiana Medicaid progf3!l1achieved savings ofapproximately $1.2 million
during the period of January 1,2011, through June 50, 2011, througl1 the use ofmanufacturer rebates for test strips. The
State agency's resourceful use ofmatlufacturer rebates led to signifiCllQtlyre<iucedcosts that provided mutua! benefits to
the State and Federal govemment,while maintaining access to test strips for Medicaid beneficiaries. OIG recOIIImended
tile State agency continue to use its manufacturer rebate program to save Medi\:aidprogram funds.

As recommended in the D\ll.ft Auqit Report dated April 20, 2012, we are in agreemeutthat the State Agency (the Office
of Medica,iq Policy and Planning (OMPP» will continue the diabetic test stripmlllllifacturer rebate program at this time.
We will evaluate savings at the end of tile conl.raclperiod(s) to determine if it is it, tile state's best interest to continue the
program as stmctured or make revisions to enhance the product delivered and savings realized.

We do have a clarification witli regard to the specitlc statement from tile Draft Audit Report, which reads "The Indiana
Medicaid program obtained a waiver from eMS, approvedotl December 1, 2010 ... " Indiana would Uke to pn)Vide
clarification that we view this program as operating under an approvedagreement with eMS regarding the
rebate/reimbursement structure. We provide this claritication only to avoid any confusion or nUsinterpretation between
this rebate program approved by eMS as opposeq to a traditional Medicaid waiver program. Indiana also wants to
                                                                                                                     Page 2 of2




ctanfy that while we cannot veril", the eX,1('1 numbers presented in this Dran Audit Report, Indiana concurs These
nUJnbers (lIe H reasonable· representation of the saving:) achieved,

Thank YOU!'Jf allowing us the opportunity to review th" audit findings and provide feedback. Please let us know if you
have. questions regarding: ourdetennination or if you-require further £\ssishuKe,

Sincerely,




Patricia -CasanO\I(l
Director of lvfcdic:;\id
Office of Medicaid Policy and Planning




                                                  Page 2
